CERTIFICATE OF WORD COUNT
NO. TBD
Mark A. Beckham,
Petitioner(s),
v.
United States of America,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the MARK A. BECKHAM
PETITION FOR WRIT OF CERTIORARI contains 6387 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Dan Abramovich

August 12, 2019
SCP Tracking: Gelfand-8000 Maryland Avenue-Cover White

